<html>
<title> - URBAN AIR MOBILITY--ARE FLYING CARS READY FOR TAKE-OFF?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  URBAN AIR MOBILITY_ARE FLYING CARS 
                          READY FOR TAKE-OFF?

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2018

                               __________

                           Serial No. 115-71

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-881 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>        
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
MICHAEL CLOUD, Texas
                           
                           
                           C O N T E N T S

                             July 24, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements


Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     4
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    11

                               Witnesses:

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, NASA
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. John-Paul Clarke, College of Engineering Dean's Professor, 
  Georgia Institute of Technology; Co-chair, 2014 National 
  Research Council Committee on Autonomy Research for Civil 
  Aviation
    Oral Statement...............................................    25
    Written Statement............................................    27

Dr. Eric Allison, Head of Aviation Programs, Uber
    Oral Statement...............................................    34
    Written Statement............................................    51

Mr. Michael Thacker, Executive Vice President, Technology and 
  Innovation, Bell
    Oral Statement...............................................    54
    Written Statement............................................    56

Ms. Anna Mracek Dietrich, Co-Founder and Regulatory Affairs, 
  Terrafugia
    Oral Statement...............................................    67
    Written Statement............................................    69

Discussion.......................................................    85

             Appendix I: Answers to Post-Hearing Questions

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, NASA......................................   110

Dr. John-Paul Clarke, College of Engineering Dean's Professor, 
  Georgia Institute of Technology; Co-chair, 2014 National 
  Research Council Committee on Autonomy Research for Civil 
  Aviation.......................................................   126

Dr. Eric Allison, Head of Aviation Programs, Uber................   136

Mr. Michael Thacker, Executive Vice President, Technology and 
  Innovation, Bell...............................................   143

Ms. Anna Mracek Dietrich, Co-Founder and Regulatory Affairs, 
  Terrafugia.....................................................   150

 
                  URBAN AIR MOBILITY--ARE FLYING CARS
                          READY FOR TAKE-OFF?

                              ----------                              


                         TUESDAY, JULY 24, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Space, Science, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning, and welcome to today's hearing titled ``Urban 
Air Mobility--Are Flying Cars Ready for Take-Off?'' I'll 
recognize myself for five minutes for an opening statement, but 
before beginning, let me just say that we expect some Members 
to arrive shortly. There are both Republican and Democratic 
Caucus meetings going on, and as soon as those caucuses are 
over, I think that we'll have more Members, although this is a 
critical mass up here right now.
    I also note the good audience interest. Nice to have 
everybody here and with our discussion about such a fascinating 
subject. And we welcome our five witnesses as well, and I'll 
introduce you in just a minute.
    For decades, flying cars have been the object of our 
imagination. They represent aspiration, innovation, and freedom 
of exploration. The entertainment industry has popularized the 
concept in everything from Chitty Chitty Bang Bang to The 
Jetsons, from Star Wars to Back to the Future.
    Let me confess to a couple of things this morning. Several 
weeks ago, I was taking a walk at the Mall, and I noticed a 
mother with a young son off to the side. It looked like to me 
the young son was operating a remote-controlled car, and 
suddenly, wings sprouted from the side of the car and the car 
took off. This was the first remote-controlled flying car that 
I've ever seen in my life. But you have to understand that I've 
been collecting articles about flying cars since I was in 
elementary school, so I was just absolutely intrigued by what I 
saw.
    I have to say I immediately sent off for one. I flew it in 
Lincoln Park several weeks ago, and it worked wonderfully. The 
advantage of this particular remote-controlled car--flying-car 
plane--is that it flies so slowly you can sort of you can't do 
much about vertical, but that's okay. It goes so slowly, it 
doesn't seem to matter.
    I also liked it so much that I want to tell Members that I 
ordered a number of these flying cars. I know a good thing when 
I see it. Every Member who comes to today's hearing is going to 
get a flying car, and I am going to show it. This is what the 
box looks like, and, more specifically, this is what the car 
looks like when the wings have popped out. This can take off in 
15 feet. I could've taken it off on the witness table, but I 
decided not to because I don't think I could have made the turn 
before it hit the wall. And I know what everybody would have 
said if that had happened.
    So, in any case, as far as the Members go, we'll be 
delivering a box to your office sometime today or tomorrow. And 
I've also promised these flying car models to all the witnesses 
today, we'll just have to figure out how you get it back if 
you're not from the DC. area, but we'll figure that out.
    By the way, it's always been frustrating to me to be given 
a present that required batteries and then no batteries, so I 
have purchased batteries. Will get, taped on top of the model, 
six AA batteries so that you'll be able to use this car fairly 
shortly. Anyway, it will be great fun, and I think you'll enjoy 
it.
    By the way, if you want to, be sure and let me know how you 
did, and if you can do, take a video. Who knows, we may have a 
video hearing sometime soon. So, anyway, when the word gets 
out, I suspect we'll have a few more Members come as well. They 
do have to stay for more than one minute, however.
    Let's see. Oh, I want to show you examples of some of these 
clippings. These are more recent clippings, but the most recent 
clipping was actually--I'm on a plane Friday night flying back 
home, and I'm reading The Economist, and in The Economist this 
week there is an article on flying cars. It's called a ``James 
Bond special,'' which happens to hit two of my personal 
interests, both James Bond and the flying cars, but it was in 
this week's Economist.
    Then, we have a Terrafugia witness today, and I went back 
and I have a clipping from 2010 on the plane that I think 
you're going to be selling next year. And I was not around at 
the time, so I don't want any comments, but back in 1945, do 
you recall the store JCPenney? Okay. This is an ad by JCPenney 
in 1945, ``buy your plane at Penney's.'' But anyway, it looked 
like every family was going to own an airplane back then. 
Obviously, it didn't happen, but that's the kind of aspiration 
we've had in the United States for--about this subject for a 
long, long time. So anyway, you can look at my clips whenever 
you want to.
    Let's see. Our focus today is on urban air mobility, a 
concept that can include delivery drones and personal air 
vehicles, as well as cars that can both be driven and flown. 
And advances in lithium-ion battery technology, computing 
power, and electric propulsion are providing companies with the 
tools they need to turn science fiction into science fact. This 
is the first Congressional hearing dedicated to the topic of 
flying cars.
    One company, Terrafugia, says that their vehicle could be 
available as soon as next year. It's called the Transition and 
can drive like a car, fit into a standard garage, and be flown 
in and out of over 5,000 local airports. And Uber has a bold 
timeline to make an air-based on-demand transportation system 
available to the public in five years. Companies like Bell are 
working to design and build the vehicles that will operate on 
the network envisioned by Uber.
    Autonomous cars, which are impressive and already have been 
the subject of Science Committee hearings, don't have the same 
benefits as urban air mobility. Traffic and gridlock challenges 
are better overcome by cars that fly rather than drive. Flying 
cars also have the benefit of enabling emergency vehicles to 
reach their destinations faster and provide more mobility 
options for those who cannot operate a car.
    Although it will be a while before we see widespread 
ownership and use of personal vehicles that can both be driven 
and flown, these advances are visible on the horizon. As 
policymakers, we can examine how we can support such 
technological advances while pursuing a safe, reliable, and 
efficient regulatory framework.
    It occurs to me that we're the first committee in Congress 
to have a hearing on flying cars, but remember, we were also 
the first committee to have a hearing on drones and several 
other subjects as well, so that's one of the things that we are 
about in the Science Committee, the future and innovation.
    We thank our witnesses for being here today, and I look 
forward to the day when I can fly a flying car.
    [The prepared statement of Chairman Smith follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. I'll now recognize the Ranking Member Eddie 
Bernice Johnson, the gentlewoman from Texas, for her opening 
statement.
    Ms. Johnson. Thank you very much. Good morning, and let me 
welcome our witnesses. And thank you, Mr. Chairman, for calling 
this hearing to examine urban air mobility research and 
development efforts and the potential benefits and challenges 
that might accrue from this exciting new technology.
    I might say that in the next five years if you'll come to 
Dallas I will make sure that you get a ride in reality.
    Stuck in a traffic jam, who among us has never dreamed of 
riding a flying car and coming out of that traffic and going--
leaping ahead of everybody? Well, it might be on the way. What 
some of us could only dream of after watching episodes of The 
Jetsons might actually happen sooner than we think. Indeed, we 
will hear today many companies believe that we are in the 
threshold of revolutionary changes brought about by a new 
generation of vehicles.
    A multitude of concepts for vertical takeoff and landing 
vehicles, many of them fueled by recent advances in lightweight 
electric propulsion and storage capacity, are being proposed 
with the goal of providing convenient urban transportation. 
Washington, you know, can really use this, too, especially 
where I have to go and come from home.
    If proven to be safe, such concepts could result in 
changing the way goods are delivered and people move around. In 
turn, the innovation generated by UAM may result not only in 
creating new jobs but also enhancing the productivity of 
workers in existing jobs.
    But as with any new technology, there are challenges to its 
implementation. This calls for thoughtful examination. A panel 
established by the National Academies found in 2014 that, 
increasingly, autonomous aircraft pose serious questions about 
how they will be safely and efficiently integrated into the 
existing civil aviation structure.
    As defined by the panel, a fully autonomous aircraft would 
not require a pilot. The aircraft would be able to operate 
independently within civil airspace, interacting with air-
traffic controllers and other pilots, just as if a human pilot 
were on board and in command.
    In addition to technological barriers such as accurately 
predicting the behavior of systems that can adapt to changing 
conditions, a feature critical in autonomous aircraft, 
widespread operation of UAS systems will also require 
resolution of applicable regulatory and certification 
requirements. Regulations are needed to ensure that vehicles 
can operate in airspace above cities without negatively 
impacting safety. In addition, certification and safety 
requirements for these type of vehicles would need to be 
developed.
    Finally, a major challenge will be integrating UAM 
operations into the national airspace. In that regard, we are 
fortunate that we can leverage NASA's work on the unmanned 
aircraft system, or the UAS, traffic management to get a head 
start examining the issue.
    Mr. Chairman, I look forward to the--hearing from our 
witnesses on the benefits and challenges associated with UAM 
operations and on the role research can play in enhancing the 
safety of future UAM operations.
    And I yield back.
    [The prepared statement of Ms. Johnson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Johnson.
    Let me introduce our experts today. And our first witness 
is Dr. Jaiwon Shin, Associate Administrator of the Aeronautics 
Research Mission Directorate at NASA. In this role, Dr. Shin 
manages the agency's aeronautics research portfolio and guides 
its strategic direction, including research in advanced air 
vehicle concepts, airspace operations, safety integrated 
aviation systems and the development of aviation concepts.
    Prior to working at NASA headquarters, Dr. Shin served as 
Chief of the Aeronautics Projects Office at NASA's Glenn 
Research Center, where he managed all of the Center's 
aeronautics projects.
    Dr. Shin received a bachelor's degree from Yonsei 
University in Korea, a master's degree in mechanical 
engineering from California State University, and a Ph.D. in 
mechanical engineering from Virginia Tech University.
    Our second witness is Dr. John-Paul Clarke, the College of 
Engineering Dean's Professor at the Georgia Institute of 
Technology, and the Co-Chair of the 2014 National Research 
Council Committee on Autonomy Research for Civil Aviation. Dr. 
Clarke's main areas of research include aircraft trajectory 
prediction and optimization, especially as it pertains to the 
development of flight procedures that reduce the environmental 
impact of aviation.
    Dr. Clarke received his Bachelor of Science, Master of 
Science, and Doctorate of Science degrees from MIT. Apparently, 
you like Cambridge.
    Our third witness today is Dr. Eric Allison, Head of 
Aviation Programs at Uber. Prior to Uber, Dr. Allison served as 
CEO of Zee Aero, where he led the development of the Cora 
vehicle, a two-place, self-piloted air taxi.
    Dr. Allison received a Bachelor of Arts in mechanical 
engineering from the Milwaukee School of Engineering. He also 
earned a Master of Science and Ph.D. from the Department of 
Aeronautics and Astronautics at Stanford University.
    Our fourth witness is Mr. Michael Thacker, Executive Vice 
President of Technology and Innovation at Bell. In this role, 
Mr. Thacker is responsible for leading Bell's engineering team 
and providing strategic direction for designing, developing, 
and integrating technologies. Prior to Bell, Mr. Thacker served 
as a Senior Vice President of Engineering at Textron Aviation.
    Mr. Thacker holds a bachelor of science in aerospace 
engineering and a Master of Science from Kansas University. He 
also holds an MBA degree from Duke University.
    Our final witness is Ms. Anna Mracek Dietrich, Co-Founder 
and Regulatory Affairs at Terrafugia. She leads Terrafugia's 
U.S. regulatory policy engagement.
    Prior to founding Terrafugia, Ms. Dietrich worked to 
advance pioneering strategies and product development at GE 
Aviation and Boeing Phantom Works. As a recognized leader in 
aviation and innovation, she was named one of Boston's top 15 
innovators by the Boston Globe.
    Ms. Dietrich earned bachelor and Master of Science degrees 
in aerospace engineering from MIT, and also holds a private 
pilot license.
    We welcome you all, and look forward to your testimony. Dr. 
Shin, if you'll begin.

                 TESTIMONY OF DR. JAIWON SHIN,

                    ASSOCIATE ADMINISTRATOR,

                      AERONAUTICS RESEARCH

                   MISSION DIRECTORATE, NASA

    Dr. Shin. Chairman Smith, thanks so much for that great 
opening.
    Ranking Member Johnson and Members of the Committee, thank 
you for this opportunity to testify on NASA's aeronautics 
research program and the R&D challenges related to urban air 
mobility, or UAM.
    NASA's aeronautics is globally recognized as the DNA of the 
aviation system. For over 100 years, we have been conducting 
world-class research to enable safer, more efficient, and more 
environmentally friendly air transportation systems. We work 
through collaborative partnerships with the U.S. aviation 
industry, other government agencies, and academia to ensure our 
technologies quickly transition for application.
    As the introduction of the jet engine revolutionized 
aviation in the last century, UAM promises another revolution 
in this century. This new capability could completely transform 
the urban landscape and change our lifestyle. Urban air 
mobility is not a new idea, but in the past, the technologies 
were not available to meet the safety and economic 
requirements.
    So what's different now? First, the enabling technologies 
are within our grasp such as an ability to manage massive data 
sets; electric power and propulsion systems for quiet, 
sustainable, and more affordable vehicles; miniaturization and 
fusion of sensors in vehicle and operational system autonomy.
    Second, by the middle of the century, 70 percent of the 
world population will live in urban areas. Mobility within 
these cities will require different solutions.
    Finally, there is a change in consumer expectations. Across 
society, we are bringing technology to end-users on demand and 
at their fingertips. Now, technology can enable the same on-
demand experience in aviation.
    But this new market won't emerge overnight. UAM will start 
with a mix of onboard-piloted and remotely piloted vehicles and 
progress toward autonomous operations. Markets will develop 
incrementally with initial markets driven by the need to have a 
solid safety case. Along the way, many challenges will need to 
be solved.
    NASA focuses on the critical technical challenges where no 
one company can go alone. And NASA is already contributing. We 
have recently made history by flying our Ikhana UAS without a 
chase aircraft utilizing the standards that we developed and 
validated. We innovated the UAS traffic management or UTM 
concept for smaller UAS to operate at low altitude in 
uncontrolled airspace. Today, UAM is accepted concept around 
the world.
    Through our general aviation size X-57 distributed electric 
propulsion demonstrator, we are helping to develop and validate 
standards and means of certifying electric propulsion 
components and systems. But UAM presents many more challenges 
in technical regulatory policy and infrastructure areas. 
Prevailing UAM vehicle concepts employ vertical takeoff and 
landing designs that utilize distributed electric propulsion 
systems and highly automated guidance and control systems. 
Assuring the safety of these vehicles for operation in densely 
populated urban areas will be a major challenge.
    To enable UAM operations of distributed highly automated 
service provider-based system with robust data-sharing is 
needed, which is precisely what NASA is developing today with 
UTM. We will extend the UTM concept to meet the even more 
challenging UAM requirements.
    Communities will not accept UAM operations if the noise 
level significantly exceeds background noise levels. Meeting 
those expectations requires technologies to reduce vehicle 
noise and mitigate noise through operational procedures. NASA 
is uniquely positioned to make impactful contributions to 
realizing the UAM vision by providing leadership in identifying 
the key challenges and conducting necessary R&D to address 
those challenges. We are actively shifting our focus to work on 
these challenges, building new partnerships, and leveraging 
ongoing work to make an impact as soon as possible.
    UAM is a major economic and transportation opportunity that 
the United States must lead. NASA will do our best to ensure 
the United States maintains the global leadership. With the 
right technology, right business environment, and 
entrepreneurial spirit to succeed, NASA and the U.S. aviation 
community will lead the world into a new era of aviation.
    Thank you again for this opportunity to testify on this 
critically important topic. I look forward to answering your 
questions.
    [The prepared statement of Dr. Shin follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Thank you, Dr. Shin.
    And Dr. Clarke?

               TESTIMONY OF DR. JOHN-PAUL CLARKE,

            COLLEGE OF ENGINEERING DEAN'S PROFESSOR,

                GEORGIA INSTITUTE OF TECHNOLOGY;

            CO-CHAIR, 2014 NATIONAL RESEARCH COUNCIL

       COMMITTEE ON AUTONOMY RESEARCH FOR CIVIL AVIATION

    Dr. Clarke. Chairman Smith, Ranking Member Johnson, Members 
of the Committee, thank you for this opportunity to comment on 
the potential benefits and challenges of urban air mobility.
    The subject vision for UAM is that of vertical takeoff and 
landing and in some cases short takeoff and landing vehicles 
transporting people directly between their origins and their 
destinations. However, there's also an equally compelling 
vision of VTOL vehicles, potentially autonomous VTOL vehicles 
transporting packages and cargo on nonstop segments between 
their origins and destinations.
    My sense is that UAM will involve the movement of both 
people and cargo between origins and destinations and that it's 
also very likely that they will have to be a dynamic hub-and-
spoke network in a similar way to we have airlines where flight 
segments and the locations of hubs are dynamically generated 
based on the demand that you see at any given time.
    With this vision as a basis for analysis, it's evident to 
me that, first, aircraft will require greater autonomy in 
operations, and by that I mean be able to operate without human 
intervention, supervision, and autonomous decision-making, 
i.e., able to determine what to do next in a situation that was 
not preprogrammed or predetermined.
    Second, the two basic aspects of air-traffic management, 
air-traffic control and traffic flow management, will also 
require greater autonomy.
    Third, the proliferation of vertiports will raise noise, 
privacy, and safety concerns.
    Fourth, vertiport locations and flight trajectories must be 
jointly optimized for efficiency, noise, privacy, and safety.
    Fifth, ATM for UAM will likely be provided by private/
municipal entities, maybe public-private partnerships that are 
monitored or regulated by the FAA.
    And sixth, legislation may be needed with respect to 
certification requirements for vehicles, systems, and 
operators.
    The first two issues I've raised relate to autonomy. The 
third and fourth issues relate to modeling and optimization. 
The fifth and sixth are public policy issues for which I am not 
an expert but I am sure many in the room are. Thus, I will 
confine the remainder of my remarks to the research challenges 
and objectives for autonomy research and for modeling and 
optimization research.
    With regards to autonomy research, in 2014 the NRC report 
entitled ``Autonomy Research for Civil Aviation: Towards a New 
Era of Flight,'' my colleagues and I identified eight technical 
barriers, four regulation and certification barriers, and two 
legal and social barriers to increased autonomy.
    We propose the following four most urgent and most 
difficult research projects: develop methodologies to 
characterize and bound the behavior of adaptive nondeterminate 
systems over their complete lifecycle; two, develop the system 
architectures and techniques that would enable increasingly 
sophisticated and increasingly autonomous systems and unmanned 
aircraft to operate for extended periods without real-time 
human cognizance or control; three, develop the theoretical 
basis and methodologies for using modeling and simulation to 
accelerate the development and maturation of advanced 
increasingly autonomous systems and aircraft; and fourth, 
develop standards and processes for verification, validation, 
and certification of increasingly autonomous systems and 
determine their implications for design.
    I believe that these research projects remain relevant to 
the quest for increasing the autonomous vehicles and systems 
and are just as relevant to the realization of UAM. To my 
knowledge NASA has started research in each of these four 
areas. However, progress has been slow and needs to be 
accelerated.
    In regards to modeling and optimization research, 
helicopter noise has been and continues to be a concern in 
urban areas. I have every reason, given the similarities, to 
believe that the noise from proposed UAM VTOL will also be a 
concern in urban areas. Separately, there continues to be 
concern about safety of helicopters and other rotorcraft, and 
current understanding of the privacy and safety concerns of the 
general public is poor.
    With these considerations in mind, I believe that UAM will 
be further enabled by investments in the following four 
research projects:
    First, develop models for source noise and failure 
characteristics of a wide range of proposed vehicles in a wide 
range of operating conditions.
    Second, develop noise and failure modeling frameworks that 
can be used in the context of a broader vehicle design tool to 
develop no-noise, high-reliability vehicles and to aid in 
certification.
    Third, develop holistic analytics capabilities for UAM.
    Fourth, develop high-fidelity computationally efficient 
algorithms to optimize trajectories and the locations of 
vehicles.
    Thank you for inviting me to testify and for having the 
vision to hold a hearing on this very important topic. I look 
forward to your questions and to working with you in the future 
on this topic.
    [The prepared statement of Dr. Clarke follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Thank you, Dr. Clarke.
    Dr. Allison?

                 TESTIMONY OF DR. ERIC ALLISON,

                HEAD OF AVIATION PROGRAMS, UBER

    Dr. Allison. Mr. Chairman, Ranking Member Johnson, and 
Members of the Committee, it is a privilege to be here before 
you today to discuss the role Uber will play in delivering 
aerial-ride sharing services in the years ahead. My name is 
Eric Allison, and I'm excited to lead Uber's Elevate 
initiative. Elevate is building our future Uber air product 
that aims to allow anyone to push a button and get a flight. To 
achieve this, we are developing a real-time on-demand network 
of air vehicles to deliver time savings to riders on a massive 
scale.
    We are creating Uber Air because we believe aerial 
ridesharing has the potential to radically improve urban 
mobility. Every year, millions of hours are wasted in traffic 
on roads worldwide. In 2016, the Texas Department of 
Transportation estimated drivers in five of the State's largest 
metropolitan areas lose about 52 hours a year due to 
congestion. And here in the United States we have one of the 
world's most congested cities, Los Angeles. This is why we have 
announced Dallas-Fort Worth and Los Angeles as two of our 
launch markets. For residents of these cities and for the rest 
of us, moments stuck on the road represent less time with 
family, fewer hours growing our economies, and more money spent 
polluting the world.
    As a multimodal transportation company, Uber believes 
solving this problem is core to our mission of making 
transportation safe, reliable, and affordable to everyone 
everywhere. Just as skyscrapers allowed cities to use limited 
land more efficiently, urban air transportation will use all 
three dimensions to alleviate transportation congestion on the 
ground.
    We started this journey two years ago by publishing our 
Elevate white paper, which I respectfully request be entered 
into the record.
    Chairman Smith. Without objection, the white paper will be 
made a part of the record.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Dr. Allison. Thank you. We wanted to understand why people 
don't fly in cities today and what barriers must be overcome to 
make this possible.
    In addressing these questions we identified an approach to 
systematically tackle each of the challenges, and in fact, our 
analysis not only projects aerial ridesharing as feasible but 
also leads us to chart a path to launch at affordable prices. 
Once economies of scale are achieved, we could operate at rates 
cheaper than owning and driving your own car.
    To achieve this vision, we aim to begin testing vehicles in 
Texas and California by 2020 and commence certified commercial 
operations in 2023. During our trial phase, we intend to prove 
the high safety, constant reliability, and low-noise aspects of 
our service so we may expand passenger operations once we begin 
deploying certified aircraft. In both markets our service holds 
the promise of reducing congestion and improving quality of 
life.
    Ultimately, no one company can do this alone. Broad-based 
partnerships with government and industry are critical to 
achieve this vision. One of our partners, Bell, is a leading 
rotorcraft manufacture and is well-positioned to pave the way 
for safe, reliable, and affordable Uber air taxis. Together 
with our other vehicle partners--Boeing's Aurora, Embraer, 
Pipistrel, and Karem Aircraft--we are actively designing new 
aircraft to lead a revolution in urban aviation in cities 
around the globe. We're proud to be collaborating with these 
job-creators to chart the future.
    The National Aeronautics and Space Administration is 
another important partner. We've signed two Space Act 
agreements with NASA, one for the development of new UTM 
concepts and another to explore technologies for urban air 
mobility. As part of these agreements, we've completed a study 
on ways our aircraft will safely separate from commercial 
airliners in Dallas-Fort Worth airport and conducted 
simulations paving the way for long-term air-traffic management 
solutions. Additional studies to unlock urban air 
transportation are ongoing.
    We ask Congress to encourage NASA to continue investing in 
this ecosystem, and we look forward to extending our 
collaborations with NASA and other governmental partners to 
work on aircraft innovation, noise limitations, and autonomous 
flight. As a member of the NASA Advisory Council Aeronautics 
Committee, I'm confident our joint research efforts can and 
will help open this market and ask each of you to encourage and 
support NASA to continue investing in this exciting new 
industry.
    At Uber we are investing in aerial ridesharing because it 
has the potential to deliver time savings at affordable prices 
to consumers around the world. We see exceptional demand across 
all large markets for safe, reliable, fast transportation 
services, and our network can be an excellent supplement to 
public and private transit options across each of them.
    The converging forces of improving battery technology, 
massive utilization through rideshare, and the advent of 
reliable autonomous aviation will be a true gamechanger in how 
people move around cities across the world. Working with 
visionary leaders like those at this table, we will bring about 
lasting positive change.
    To give you a sense of how users will live this future 
transportation experience, I would like to close with a short 
video illustrating Uber Air. I hope you enjoy this projection 
of the future and look forward to answering your questions 
about our vision and our approach. Thank you.
    Please play the video.
    Chairman Smith. Okay.
    [Video shown.]
    Dr. Allison. So in this video you see the integration of 
our service with the Uber app. The rider requests a ride and 
then is directed to a sky port where they're able to board an 
aircraft and be taken to their destination, flying above 
traffic. And then the vehicle goes away to take the next ride. 
Thank you very much.
    [The prepared statement of Mr. Allison follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Closer than you think. Thank you, Dr. 
Allison.
    Mr. Thacker?

               TESTIMONY OF MR. MICHAEL THACKER,

                   EXECUTIVE VICE PRESIDENT,

                TECHNOLOGY AND INNOVATION, BELL

    Mr. Thacker. Chairman Smith, Ranking Member Johnson, 
Members of the Committee, thank you for inviting me to testify 
this morning on the subject of urban air mobility. My name is 
Michael Thacker, and I am Executive Vice President of 
Technology and Innovation at Bell. Made up of 7,200 employees, 
Bell is based in Fort Worth, Texas. My written testimony has 
been submitted for the record, but I appreciate the opportunity 
to highlight a few key elements for the consideration of the 
Committee.
    To help set the stage, I would also like to start by 
sharing a video.
    [Video shown.]
    Mr. Thacker. At Bell, we have a legacy of leading 
innovation in aviation, as I mentioned, from the first American 
jet fighter to the first tiltrotor. Today, we are carrying that 
forward by creating new opportunities in urban air 
transportation with electric and hybrid vertical takeoff and 
landing aircraft.
    Much work remains to be done by Bell and our partners and 
government agencies to operationalize on-demand mobility in the 
vertical dimension and bring the benefits of aviation to our 
communities in a way that is safe, quiet, convenient, and 
affordable.
    Work is progressing on many fronts with our partners, 
including private entities like Uber and public agencies like 
the FAA and NASA. At Bell, we are using four integrated 
frameworks to help define the urban air mobility model: 
operational, regulatory, manufacturing, and technology. The 
operational framework allows us to define the necessary 
requirements for urban on-demand mobility. These include 
operational infrastructure, safety and acoustic considerations, 
and the critical need for a solution that is affordable for 
most people. The operational framework also includes local 
community engagement.
    Bell's top priority within the regulatory framework is 
working with the FAA and other regulatory stakeholders to 
establish an integrated approach across vehicle, operational, 
and air-traffic requirements. We firmly believe that current 
aviation safety expectations should be met and even exceeded, 
but new vehicles and operational models may mitigate risks in 
new ways.
    The recent modification to the certification requirements 
for small aircraft known as part 23, amendment 64, and its 
performance-based approach provides a reasonable starting point 
for certifying these new aircraft. We would like to see a 
similar performance-based approach to the integrated safety 
system requirements for the vehicle operations and airspace 
together. A holistic regulatory approach will help provide a 
clear path to compliance and permission to operate for urban 
mobility concepts.
    The manufacturing framework is developing fabrication and 
assembly processes and technologies critical for success of 
urban mobility. Quality and safety are baseline expectations, 
so the primary efforts here focus on cost, weight, and 
environmental impact.
    The technology framework is informed by the needs created 
in the other three. Bell and our partners are developing 
technologies such as electric and hybrid electric distributed 
propulsion, augmented and autonomous flight controls, and 
secure remote monitoring and fleet management solutions to form 
the basis for a new breed of aircraft and the backbone of urban 
mobility operations. Taken together, these frameworks will 
inform the continued development of Bell on-demand air mobility 
concepts. While we are not ready to share our program 
timelines, we believe viable commercial operations are possible 
in the mid-2020s.
    The traffic congestion challenges facing our population 
centers aren't going away and are not likely to be solved 
through conventional means. We must approach tomorrow's 
challenges with innovative thinking that not only helps manage 
known issues like traffic but also creates new opportunities 
for technological advancement, for new career fields, for noise 
and pollution reduction, and for an increased quality of life 
for our citizens.
    There is still a lot of work to be done to create a viable 
flight-based urban air mobility network, but we believe that 
future is real and coming soon to a neighborhood near you. We 
look forward to working with you to bring it to life.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Thacker follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Okay. Thank you, Mr. Thacker.
    And Ms. Dietrich?

             TESTIMONY OF MS. ANNA MRACEK DIETRICH,

         CO-FOUNDER AND REGULATORY AFFAIRS, TERRAFUGIA

    Ms. Dietrich. Thank you, Chairman Smith, Ranking Member 
Johnson, and Members of the Committee. I appreciate the 
opportunity to be here this morning to talk to you about 
something that I've been working on for well over the last 
decade.
    My name is Anna Mracek Dietrich, and I'm one of the 
original founders of Terrafugia. I currently lead our company's 
regulatory and policy efforts.
    Next slide, please.
    [Slide.]
    Ms. Dietrich. Terrafugia was founded in 2006 to help 
address the $160 billion transportation challenge that we face 
in this country. Today, we're employing over 150 people across 
three locations in the United States and are getting ready to 
bring our first general aviation product, the Transition, what 
you see on the screen, to market next year.
    Following Transition, which takes off and lands from 
airports and is street legal to drive home and park in your 
garage--we are pursuing an eVTOL concept, which we're currently 
calling TF-2.
    Next slide, please.
    [Slide.]
    Ms. Dietrich. You can see some information about it here, 
but I think a video is worth more than 1,000 words if you could 
please go ahead with that.
    [Video shown.]
    Ms. Dietrich. So the idea behind TF-2 is that it is a 
three-part system. It fully integrates ground and air 
transportation, so you are picked up by the ground vehicle with 
the passenger pod at your origin. It drives you to a vertiport 
where you're connected to an electrical vertical takeoff and 
landing air vehicle, which then flies you across traffic to 
your final destination.
    Unlike some of the other entrants into this space, TF-2 has 
a little bit of a longer range. We are using a hybrid electric 
power system for flight, and that gives us a range of around 
200 miles, which allows not only urban operations but could 
bring in people from surrounding rural areas for hospital 
visits, things like that as well. And then once you are on the 
ground, another ground vehicle picks you up and takes you to 
your final destination.
    We're anticipating around $30 for a 10-minute flight, and 
that should take about 20 minutes over traffic, so it should be 
an accessible form of transportation.
    Next slide, please.
    [Slide.]
    Ms. Dietrich. So there's three pieces of the regulatory 
landscape that I see as being necessary to support this new 
technology--Ms. Johnson mentioned several of these in her 
opening remarks--the airworthiness certification, operations 
and operators, and air-traffic control. The airworthiness 
certification is the most mature of all of these areas. As was 
mentioned, the Part 23 rewrite, which was completed last year, 
is a key piece of that. Having safety intent regulations really 
do allow additional innovation to be brought into general 
aviation, so that is where we anticipate certifying these 
aircraft is in Part 23, Amendment 64. You can see the 
comparison to Part 27, which is rotorcraft, and it's 
significantly more appealing to go into Part 23.
    From the operations and operators' perspective, that's 
where we start talking about bringing autonomy into the 
equation, everything from how do we appropriately train pilots 
to accommodate for new technologies in the cockpit through how 
do we ultimately certify an aircraft to be safe to be flown 
without a human directing it? So that's a whole spectrum of 
efforts that are currently ongoing from both the operational 
and aircraft certification and training perspectives.
    Air-traffic control, I see it as very important that we 
consider our airspace as unified airspace, so it's very 
tempting to try to segregate both along the lines of existing 
airspace sort of designations, but as well in terms of 
industries. And as you can see in the graphic there, it really 
is a transportation ecosystem. It's a network. Everything from 
small unmanned drones that might be delivering your packages 
all the way through commercial airliners, there's a lot of 
different uses for the sky, and they all need to be combined 
into a constructive single system.
    So as we look forward to systems for that, I think there's 
a few pieces that we need to keep in mind. One is that we need 
to be thinking about incorporating new technologies into how we 
control airspace using vehicle-to-vehicle communications, 
potentially getting away from voice communications, and really 
looking at it as a single system.
    Next slide, please.
    [Slide.]
    Ms. Dietrich. So there's also some challenges associated 
with bringing any new technology to market and creating a new 
industry. These are just a few of them. I've touched on them in 
more detail in the written testimony, but the four that I'll 
highlight are connectivity, infrastructure access, technology 
development, and affordability. By connectivity I mean some of 
what I was mentioning before, both vehicle-to-vehicle 
communications and vehicle to air-traffic controller or other 
ground-based systems. This includes continued-access GPS 
capabilities, 5G cell data service, and appropriate frequency 
band allocations for transportation.
    Infrastructure access spans local, state, and federal 
levels. Technology development, in many ways we are already 
well on our way towards the technology that we need to 
accomplish these missions in these vehicles, but additional 
research will set the stage for future applications.
    And then affordability is really primarily within the realm 
of the manufacturers, but it is of course influenced by how 
streamlined the certification and operation processes can be.
    Last slide, please.
    [Slide.]
    Ms. Dietrich. So with that, thank you very much for the 
opportunity. I look forward to answering your questions and 
continuing the discussion past this morning.
    [The prepared statement of Ms. Dietrich follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. Thank you, Ms. Dietrich.
    Let me recognize myself for five minutes for questions. And 
let me ask you if you could possibly keep your answers to one 
minute. I've got lots of questions and would like to get 
through as many as possible.
    Dr. Allison, the first one is for you. What are the 
advantages of UAM networks over self-driving cars or 
helicopters?
    Dr. Allison. Thank you, Congressman, for the question. We 
see the advantages of this type of aerial ridesharing as the 
ability to have both higher-speed point-to-point and also 
higher certainty. So once you take off, the likelihood or the 
prediction of what time you're going to land is quite accurate 
versus the ground transportation where you have much more 
congestion. And so you have both higher speed and lower 
variance, which adds a unique capability into the 
transportation network. And these types of vehicles 
additionally will be quieter, safer, and much cheaper to 
operate than traditional helicopters, which will make it much 
more accessible as a transportation system.
    Chairman Smith. Okay. Thank you, Dr. Allison.
    Ms. Dietrich, the Transition will be the first flying car 
available for public purchase. How confident are you that 
they're going to be available to be bought next year?
    Ms. Dietrich. Well, I'm much more confident that the 
Transition will be available for purchase in 2019 than I would 
have been several years ago giving you an estimate.
    Chairman Smith. Okay.
    Ms. Dietrich. We are currently tooling up for production. 
We do have customers in line for delivery, and as of today----
    Chairman Smith. Okay.
    Ms. Dietrich. --things are on track for that----
    Chairman Smith. And what do they cost and are you taking 
orders?
    Ms. Dietrich. We are taking orders. We have a team at 
Oshkosh this morning--this week actually for that, and we 
anticipate--if you're going to do private ownership model, 
it'll be typical aircraft pricing so----
    Chairman Smith. What is that?
    Ms. Dietrich. Four hundred thousand dollars, in that 
ballpark.
    Chairman Smith. Okay.
    Ms. Dietrich. Airplanes are expensive.
    Chairman Smith. Okay.
    Ms. Dietrich. We are looking at other options for being 
able to use the vehicle----
    Chairman Smith. Okay.
    Ms. Dietrich. --on more of a shared use space----
    Chairman Smith. Okay. And in five to ten years, you hope to 
have some kind of a public transportation taxi service, is that 
right?
    Ms. Dietrich. The TF-2 time frame is five to ten years. 
That's correct. That's the video that we saw this morning.
    Chairman Smith. And Dr. Allison wants to know, won't you be 
competing with Uber?
    Ms. Dietrich. Well, I think there's a very broad market 
space, and I think Uber is focused on operating inside city 
centers, and the TF-2 gives you an opportunity to bring people 
into that city center from surrounding areas. So I see it as a 
very complementary service actually.
    Chairman Smith. Wow, you're a politician. Okay.
    Dr. Shin, on the urban air mobility, NASA has announced a 
grand challenge. What does that consist of? What are the 
details?
    Dr. Shin. Yes, thank you for the question. We envision that 
private industry investment and the pace of technology 
advancement is just amazing and great, so we are trying to find 
exactly what government should be doing to enable the private 
investment and the progress. So we would like to provide a 
forum where industry partners can come and check their ability 
and capabilities. So we--government will provide a certain 
level of requirements, in--particularly in safety area, in 
noise area, and areas like that at the system level.
    Chairman Smith. When will that be announced? When you're 
going to----
    Dr. Shin. We are formulating what sort of exactly the grand 
challenge should be. As we are speaking, my team has been 
working on that for a month, and we are hoping to announce the 
intent by early next year so that industry partners can 
prepare.
    Chairman Smith. Okay.
    Dr. Shin. And then toward the end of next calendar year, 
we're hoping to announce the grand challenge.
    Chairman Smith. Okay. That'll be a good incentive.
    Mr. Thacker, I know you have a partnership with Uber to 
design vertical takeoff or landing vehicles. My question for 
you--and obviously, Bell has changed its name from Bell 
Helicopter to just Bell. That may be part of the answer, but do 
you think the days of the helicopters are limited or are there 
still advantages to helicopters?
    Mr. Thacker. So the days of the helicopter are not limited, 
but we do see the world changing, and Bell is much more than 
helicopters. We already are more than helicopters with 
tiltrotor, with the V-22 and the V-280 for the Army and 
Marines' future vertical lift needs.
    But beyond this, this move in technology and convergence of 
electric, hybrid, and distributed propulsion allows a new breed 
of vertical takeoff and landing vehicles, one's for markets 
like the Uber network but also for carrying cargo and 
logistics, as Dr. Clarke mentioned. We see that as a tremendous 
opportunity for our business and one that, as a legacy leader 
in vertical lift, we should be leading as well and so thus the 
change from Bell Helicopter to Bell.
    However, from a heavy standpoint from things that require 
large amounts of lift, there will be hydrocarbon-burning 
helicopters around for a good long time.
    Chairman Smith. And perhaps long distances as well?
    Mr. Thacker. Absolutely.
    Chairman Smith. Okay. Thank you, Mr. Thacker.
    Dr. Clarke, what kind of public-private partnerships can we 
expect in coming years?
    Dr. Clarke. I think, you know, it's not realistic to expect 
FAA to be expanded to actually dealing with air-traffic control 
in an urban environment, so I do believe municipalities will be 
involved for liability reasons, and I think there are a lot of 
companies out there working on ideas for air-traffic 
management. And the NASA UTM program has been very instrumental 
in figuring out how to get people to communicate and different 
entities communicate together.
    So ultimately, I see like a cable model where----
    Chairman Smith. Yes.
    Dr. Clarke. --some part of an urban area will be allocated 
a space for them to provide a service of air-traffic control. 
Obviously, the regulations have to be--the proper regulations 
have to be put in place and the communications and handoff from 
one area to the other will have to be worked out. But I 
envision a cable model in a short sentence.
    Chairman Smith. Okay. Thank you, Dr. Clarke.
    That concludes my questions. The gentlewoman from Texas, 
the Ranking Member, is recognized for hers.
    Ms. Johnson. Thank you, Mr. Chairman.
    Dr. Clarke, you indicate in your prepared statement that 
increasingly autonomous capability will be necessary as UAM 
services expand. Could you highlight what you believe makes 
that necessary? What will--what kind of attention will be given 
to the safety risk? What role should research play in 
mitigating such risk? And who should do this research?
    Dr. Clarke. Well, I'll start with the last one. I 
personally believe NASA is in the right position to do that 
research. So I'm going back to the start of your question, 
let's start with the commercial side, the Uber side of things. 
Economies of scale dictate that you'd like to move first to one 
operator and then no operator of a vehicle. And if you go to 
one operator, the requirements to train that person to the 
level of a commercial pilot are onerous and quite expensive. 
And you have to pay them, and we already have a forecast 
shortage of pilots. So that drives you there to more autonomous 
vehicles so that you don't have to have somebody with a 
commercial pilot license and 1,500 hours operating a vehicle. 
So you have to then trade that off with some more autonomy to 
complement their skill sets.
    And then when you go to no operator or at least nobody in 
the vehicle operating the vehicle and remote supervision, you 
have things like loss of communication that become issues, so 
the vehicles themselves have to be able to operate without a 
linkage to somebody on the ground. So both of those things, 
moving to a single pilot, moving to pilots with less training 
than our current commercial pilots, and going towards 
completely autonomous systems. I mean, systems that have 
linkages with the ground which can be lost drive you towards 
autonomy.
    And the research needs to be done to figure out how to 
get--the big thing is how do we get vehicles that, when faced 
with the situation, don't just say ``does not compute'' and 
shut down, right? We want vehicles that, when faced with a 
situation, act more like humans, which basically try to figure 
out what the issues are, try to figure out where the 
constraints need to be relaxed, and what needs to be done to at 
least get them to a safe point, a safe mode, which we've done 
for many years on the space side where, when things happen, 
there's always a safe mode to revert to. So that in summary is 
where I think.
    Ms. Johnson. Thank you very much.
    Dr. Allison, in Dr. Clarke's prepared statement he 
indicates that potential UAM service users are likely to prefer 
the vertiport locations convenient to their homes and where 
they're headed. How should that convenience of the UAM users be 
balanced with community concerns in choosing vertiport 
locations?
    Dr. Allison. Thank you, Ranking Member, for your question. 
This is a very important concern and something that we've spent 
a lot of time looking into. One of our strengths at Uber is 
that we do a lot of analysis, simulation and understanding of 
transportation networks, and so we've made as a core of Elevate 
an ability to analyze, to infuse together different types of 
data for different communities that we're looking at in terms 
of restrictions and noise sensitivities and things like that. 
To actually determine where an optimal place is based on 
demand, as well as community considerations are to place the 
vertiports as we develop our network.
    And so we want to do this in partnership with the local 
communities, which is why we've had a very strong engagement 
with both Dallas-Fort Worth and Los Angeles to actually 
determine the right way to do this and to do it in a way that 
works hand-in-hand with local communities to build a service 
and a network that everyone's very happy with.
    Ms. Johnson. Thank you. Based on FAA's experience with 
community resistance to the concentration of flight tracks and 
all of the application of next-gens, of tracks, and 
performance-based navigation techniques, it appears--and I 
don't know what it's going to cost. I don't know if you know 
yet, but it does appear that the people who might be able to 
use it are also the ones that do the most complaining about 
air-traffic noise. And so how do you plan to mitigate that?
    Dr. Allison. We have as our basis for what we're doing kind 
of a deep view that community engagement is very important from 
the very beginning, and so part of our desire to roll this out 
in a systematic way is to start in places where there is the 
right level of engagement and the right level of support in the 
community and to demonstrate the low-noise capabilities and the 
integration into the local transit system in a way that 
demonstrates the utility and the overall value proposition of 
this type of transportation to the wider community. And so 
that's the approach that we're taking as we roll this out.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    I represent--and I guess I should direct my question to Dr. 
Allison and Mr. Thacker and Mrs. Dietrich-- I represent a part 
of the country that benefited greatly from the establishment of 
the U.S. highway system. And when you're in Oklahoma, of course 
you're on the old historic Route 66, the commerce road from 
Chicago to Los Angeles, and it dramatically expanded the 
availability of services, the nature of the economy in rural 
America.
    So let's talk for a moment about--and I know our initial 
focus is on the urban areas--but let's talk about how long you 
would expect the benefits of urban air mobility to work from 
the urban zone out into the suburbs, the rural areas so to 
speak.
    Mr. Thacker. So I'm happy to take a stab at that----
    Mr. Lucas. Please.
    Mr. Thacker. --and then let my colleagues join in. 
Honestly, we see the timeline for some of the applications 
being very similar. At Bell we are developing all-electric 
solutions for applications like the Uber network, but we're 
developing hybrid electric solutions with modular propulsion to 
extend the range. So the ability to deliver goods and services, 
provide emergency medical capabilities, things that general 
aviation already provides to rural communities with these 
vehicles and with this system, it should be available in a 
similar time frame. In reality, it may be available to some 
degree sooner because, from an operational standpoint, we will 
begin operating over lightly populated areas before we operate 
over heavily populated urban areas.
    Ms. Dietrich. And I would second what Mr. Thacker said. I 
think that there is a real possibility to bring more rural 
areas, more into some of the advantages that you have in the 
urban areas, getting access to hospitals, more expedited cargo 
delivery, things like that. I think this industry has the 
ability to serve those areas very well, and I agree with the 
timing and I agree with the hybrid propulsion solutions that 
provide a longer range. You know, TF-2 has a range of around 
200 miles. Those sorts of solutions will bring access to those 
communities probably on the same time frame as the all-electric 
versions to city centers.
    Dr. Allison. Yes, our network is focused on higher-density 
areas because a lot of the ability to drive utilization and 
load factor into vehicles is one of the ways we're able to 
drive costs down at least in our predictions on a cost per 
passenger mile. So certainly, as we extend to less densely 
populated areas, we'll have to revisit some of those 
assumptions and look at the way the network flows are modeled 
in--as the density decreases.
    Mr. Lucas. This question I address to the whole panel. And 
I go back once again to Route 66. When that was initially laid 
down, the average automobile that would have puttered down the 
road in Oklahoma would have been a Ford Model T, very simple 
four-cylinder, minimal mufflers, no emission control 
essentially whatsoever, but a very effective mass-produced 
automobile that the country--for that matter, the world--
adopted and it led to an explosion and huge advancements in 
automobile technology.
    Assuming that this is a similar path moved forward a 
century with the initial success and the mass adoption--because 
we all tend to move as a group in this great country when it 
comes to new technology, it seems--let's go back once more to 
that issue about how we manage air traffic. If we suddenly go 
from the Model T's of the 1920s to the automobiles of the '30s, 
'40s, '50s, we'll have a dramatic explosion in the utilization 
of the airspace.
    I live in a part of western Oklahoma where, while it seems 
very thinly populated, we are under a military air reservation. 
We have training flights, primary pilots, the transport Air 
Force cargo planes that train all the time. We've got the East-
West traffic, the commercial stuff with the higher elevations, 
which I realize is above where we're talking about going, but 
let's discuss for just a moment the public-private sector 
relationship, how we think they'll advance. Can we keep up when 
it comes to managing that air-traffic flow if there is an 
explosion in utilization?
    Ms. Dietrich. I thank you for bringing up the history of 
the automobile and bringing that industry online because when 
first those Model T's were rolled out, we didn't have the 
transportation infrastructure on the ground that we do today 
either. We didn't have stoplights at every corner.
    Mr. Lucas. Exactly.
    Ms. Dietrich. We didn't have, you know, the rules of the 
road----
    Mr. Lucas. And my great-grandfather said it was----
    Ms. Dietrich. Yes.
    Mr. Lucas. --a silly fad at the time, yes.
    Ms. Dietrich. Exactly. So we have a history of being able 
to kind of evolve very quickly in these ways, and I think we 
will see something similar with these vehicles. And I think we 
can do a lot today in laying the groundwork and preparing 
ourselves for them, but I think we also do have to stay a bit 
nimble on our feet and be prepared to adapt as we see where 
this industry truly goes and where the demand really surfaces.
    So I think we can--and I know the work is being done here 
is definitely in line with preparing us for that, but I think 
at the same time we need to be willing to accept the fact that 
we don't exactly know how this is going to play out and that 
there will be things that arise that we haven't been able to 
foresee and that we should be able to adapt as we go and have 
confidence in our ability to do so.
    Mr. Lucas. Thank you. My time is expired, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentleman from Virginia, Mr. Beyer, is recognized. Now, 
I know the gentleman has a certain interest in car dealerships. 
When it is he going to start selling flying cars?
    Mr. Beyer. Yes, I just came to see if I could get a 
franchise today, Mr. Chairman.
    Dr. Allison--this is relevant for everyone, but Dr. 
Allison, I'm picking on you. And I live in northern Virginia, 
which has the longest commute times in the country, the second-
worst congestion. You come in I-66, I-95, I-395, the GW Parkway 
in the morning and it's just bumper-to-bumper sometimes all day 
long. So I keep trying to imagine--and often, when I'm in 
traffic, I imagine moving to the third dimension. But I'm 
trying to figure how many cars do you really need to remove 
from a congested I-95 to get it to actually flow?
    And when you look at the size of the vehicles that we've 
seen in the videos, which are going to require more front 
space, rear space, left, right, and above and below just 
because they're airplanes rather than cars, it'd be fascinating 
to see the video that shows how you've taken, say, 20 percent, 
25 percent of the cars off and how incredibly congested the 
airspace goes above, especially if you assume--and I do--that 
the communities are going to insist that the lanes are defined 
for these vehicles, too, that you're not just flying over 
neighborhoods that--as right now, the helicopters are supposed 
to fly along the existing corridors.
    I can see why you need autonomous, too, because if you 
start putting all these people up in the air that are texting 
while they're flying their plane, it can become incredibly 
difficult so----
    Dr. Allison. Thank you, Congressman, for the question. So 
the vision that we have is that this will happen progressively 
over time, so it won't start with, you know, many, many, many 
aircraft flying around. It will start with a few, and we'll 
build up the systems as we learn, as Anna was saying actually.
    However, if you think about the three dimensions of the 
space available to sequence and structure--and we've done lots 
of simulations of this as well--vehicles flying between 
different points in the point-to-point type of a network, at a 
couple thousand feet you don't actually get to the same type of 
congestion that you see on the ground because there's just a 
lot more space and you can space things out.
    And one of the features of the types of vehicles that we're 
all talking about here, these vertical takeoff and landing 
electric vehicles that convert from rotor-borne flight in the 
takeoff and landing phase to wing-borne flight in the cross-
country phase is that they get dramatically quieter and more 
efficient as they're flying in vertical flight. So when they're 
up at cruise altitude and flying along, they're very quiet, you 
basically don't hear them. They're not the same as a helicopter 
where they make a significant amount of noise through the whole 
segment of the flight that they're on.
    So those different features, the fact that there's a lot of 
space in order to space things out, the fact that they're 
pretty quiet, and they go a lot faster than cars, too, so we're 
talking 150 to 200 miles an hour in terms of the cruise speed 
allows the airspace to soak up a lot more traffic than----
    Mr. Beyer. Okay.
    Dr. Allison. --you'd expect based on the way ground 
networks, which are basically kind of quasi-one 
dimensionaltworks clog up with cars.
    Mr. Beyer. All right. Thank you very much.
    Dr. Clarke, picking up on what Dr. Allison just said, in 
your testimony you talked about the similarities between 
helicopters and urban air mobility and that a likely side 
effect of urban air mobility could be the constant drone of 
aircraft noise. I don't need to tell you that the number-one 
concern in my district is aircraft noise followed closely by 
helicopter noise. How do we assure those folks that--you know, 
our research into UAM is really focusing on the noise piece, 
too.
    Dr. Clarke. Well, that's part of the reason why I suggested 
in my testimony that there needs to be research and a tool--and 
this hasn't--it's not going to be just one company or one 
manufacturer. It has to be a government or the community, broad 
community, accepted and verified tool for optimizing the 
trajectories to make sure that the noise level is above the 
ambient. I mean, in the end, people worry about what's above 
the ambient. I mean, you look back to the Grand Canyon, you 
know, people said, oh, the airplane is quiet, the helicopter is 
quiet, but if it's above 35 DB or 40 DB in the afternoons, 
people complain. And that's very quiet, but people have gone to 
the Grand Canyon for that natural quiet. And so it--you always 
have to match the noise level with the ambient, and we have 
to--we can do it, but it will require a lot of optimization of 
where the vertiports are, what routes they're flying.
    And I would add privacy to one of those things because we 
actually don't know how people are going to react to vehicles 
being that close to their houses. And we have to do some 
studies to actually figure it out. And in fact we don't know 
how people are going to respond to vehicles flying, you know, 
at 400 feet or 1,000 feet on a long distance at that constant 
altitude because we're accustomed to vehicles basically taking 
off and going to much higher altitudes.
    So there's work to be done to understand people's 
responses, and then there's work to be done to model, and then 
there's work to be done to optimize the trajectories because, 
ultimately, we want to enable UAM. I mean, I'm an airplane guy, 
but----
    Mr. Beyer. Yes.
    Dr. Clarke. --we want to do it right.
    Mr. Beyer. It is going to change sunbathing in the 
backyards, though.
    Dr. Clarke. Yes, I suspect it will.
    Mr. Beyer. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Louisiana, Mr. Abraham, is recognized.
    Mr. Abraham. Thank you, Mr. Chairman. And I appreciate the 
hand-up you gave of the history of the flying car going back to 
1947. I know in 1949, Moulton Taylor had an Aerocar that 
actually flew. And to your James Bond fondness, as--which I 
am--if you remember, The Man with the Golden Gun had a flying 
car in that movie also.
    Ms. Dietrich, I was there when Terrafugia premiered their 
car at Oshkosh. After votes Thursday, I'll also be flying to 
Oshkosh, and your booth is always the most popular. There's 
always a large crowd, so you certainly have the attention of 
the aviators of the world, so I think we're getting close.
    And I'm not too worried about the noise level. I know you 
guys will have to get it right from a business standpoint or 
you won't survive. That's going to be driven by both civilian 
population, as Dr. Clarke alluded to.
    I guess my concern--and it's been brought up--is 
transitioning from an uncontrolled airspace where basically you 
can do what you want to, to a controlled airspace and whether 
it's class delta, which is in a small community or whether it's 
class B, as you guys know that are on the board there, that 
airspace is controlled from surface up to 4,000, up to 10,000 
in class B. So ATC has control in even a small city from 
surface on up. And a day like today where it's cloudy, the 
ceiling is low, I'm concerned that if you have an autonomous 
vehicle that, you know, gets lost in the clouds, it gets 
basically disoriented, and unfortunately, you know, bad things 
happen.
    Ms. Dietrich, I'll I guess go to you first. I'm assuming 
that for the Terrafugia Transition car a pilot's license will 
be required to purchase that car?
    Ms. Dietrich. Well, thank you for the question. Thank you 
for the kind words. Yes, for Transition, our first product, 
that's a light sport aircraft, so you will need a sport pilot 
license or better in order to fly that aircraft. And depending 
on the qualifications of the pilot in the aircraft, you 
wouldn't be flying that particular aircraft in a day like 
today.
    From an instrument--meteorological-conditions perspective, 
autonomy is actually a safety benefit in those areas because 
all of the sensors that you would use to fly an aircraft on a 
sunny day are the same as the ones you would use to fly on a 
cloudy day. So autonomous capabilities can actually increase 
safety in bad weather, which is one of the reasons why we're 
considering incorporating them not just in these urban air 
mobility vehicles but looking at ways to bring them in to 
broader general aviation as well.
    Mr. Abraham. And I'll agree with that. I fly Cirrus, which 
has wonderful avionics and certainly can make me a much better 
pilot in conditions like this than me flying myself, so, you 
know, I can't argue there.
    And we know that in you all's world we're having to convert 
to ADS-B Out by 2020, and if you ADS Out--and cars--flying cars 
and certainly airplanes can talk to each other, so that may 
alleviate some of the burden on air-traffic control.
    Again, I worry also, you know, about the weight and 
balance, if you get somebody that does not know aerodynamics 
and they get into an autonomous vehicle that overloads its 
weight and balance capability, then you're in a dangerous 
situation.
    And, Dr. Allison, I know Uber and companies like yours are 
thinking along those lines. And I'll just let you comment.
    Dr. Allison. Sure. Thank you, Congressman, for your 
question. Those are all very important considerations, and we 
are certainly going to take a crawl-walk-run approach to this 
as we develop the networks. We will start with demonstration 
flights initially, experimental flights basically in 
conjunction with our partners in the partner cities, and then 
as--we will learn from that as we move toward the 2023 launch 
of the commercial flights that we're ambitiously projecting.
    So these questions of weight and balance, those will all 
have to be figured out by learning, by actually simulating 
these things and testing them in practice as we roll toward 
that initial startup commercial service.
    Mr. Abraham. And for you and Ms. Dietrich, are you planning 
on building these cars under part 23?
    Ms. Dietrich. Yes, sir. Part 23, amendment 64, is a good 
fit for these aircraft. There's about 80 percent of that rule 
that applies directly without any need for modification, ten 
percent that's just simply not applicable like landing on 
water. And then there's about ten percent of that rule where 
we'll need to work with the FAA for special conditions or other 
consideration where it just wasn't originally contemplated. But 
by and large it's a good fit.
    Mr. Abraham. And the FAA has helped a little bit with the 
regulation, part 23, as far as that?
    Ms. Dietrich. Yes.
    Mr. Abraham. Dr. Shin, do you have any comments on any of 
this?
    Dr. Shin. No, I think I support everything the other 
witnesses mentioned. I think I want to point out that this is a 
great opportunity for the country, that from very high-tech but 
low-volume industry that aviation has been accepted, general 
aviation part. We are actually looking at the possibility of 
turning the aviation industry as a whole from--it's still very 
high-tech--but extremely high volume just like automobile 
industry. So I think government really needs to find a way to 
enable this new capability for the country, our national 
economy, and jobs.
    Mr. Abraham. Well, I agree. And look, I think it's an 
exciting time and I wish all you guys the best of luck. I think 
the future is bright, so thank you very much.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Abraham.
    The gentleman from California, Mr. McNerney, is recognized.
    Mr. McNerney. I thank the Chairman for having an 
interesting hearing and for passing out party favors as well.
    One of the things that worries me about this subject is 
energy consumption. I mean, these things are going to--the--a 
flying vehicle is going to take a lot more energy than a 
surface vehicle. Can someone address the differential and how 
much more energy it's going to take to get somebody from point 
A to point B on a flying vehicle than a surface vehicle?
    Dr. Allison. I'm happy to jump in.
    Mr. McNerney. Sure.
    Dr. Allison. Thank you, Congressman, for the question. So, 
actually, the amount of energy per passenger mile is similar to 
an electric car, so for an all-electric version of these 
vehicles. Because they have to be very efficient in order to 
make it work essentially, that you have to design the 
aerodynamics and tailor the energy consumption for the vertical 
takeoff and landing phases of this, that it's not substantially 
different than a surface vehicle when it's all said and done 
because of the much more enhanced aerodynamic design and 
tailoring that has to be done for these types of air vehicles.
    Mr. McNerney. So speaking of aerodynamics, I mean, how 
much--how fast do you have to go to get one of these vehicles 
off the ground? I mean, there's a speed issue here which must--
yes?
    Dr. Allison. So the concept of most of what we're talking 
about is to take off and land vertically, so they actually take 
off at zero speed just like a helicopter and then transition to 
forward flight either--through different means so the 
different--different of our vehicle partners are approaching 
this problem in different ways. We have different types of 
vehicle concepts that accomplish that transitioning regime 
differently. But then once they're wing-borne, they fly like an 
airplane on the wing, which is much, much more efficient than 
flying rotor-borne, and that allows them to be lower noise and 
higher performance.
    Mr. McNerney. Well, thank you. And again, I don't know who 
to ask this question of, but according to a 2015 GAO report, 
newly developed aircraft may be particularly vulnerable to 
cyber attacks and cyber issues. If a hacker is able to overcome 
an aircraft's firewall, it could cause significant damage. 
Where do we stand with regard to security on these and being 
able to provide the security that we need to make sure that 
there's not a safety issue?
    Dr. Clarke. So I'll take that. My committee, the one I 
chaired--co-chaired in 2014, I identified security as being a 
major issue. I have briefed the then-DNI on this topic and I 
can't talk about that here, but I know that work is being done 
very extensively looking at this. As you rightly point out, 
there are vulnerabilities that need to be addressed.
    You know, in the old days, air-traffic control had security 
from obscurity in that nobody could get in, and therefore, you 
couldn't do anything. Now that you have lots of wireless 
networks and IP protocols, there are opportunities, and people 
are working hard on this I know on this topic.
    Mr. Thacker. Yes, I agree, and I think the key with it is 
an ongoing vigilance because it isn't a static target that 
says----
    Mr. McNerney. Right.
    Mr. Thacker. --we've solved cyber and now we're ready to go 
forward. It's going to be something that we have to continue to 
adjust and adapt as we go forward because the threats will 
continue to adapt as well.
    Mr. McNerney. So I've asked about energy, I've asked about 
cyber. What about cost? Is there going to be a comparable cost 
of a flying vehicle versus a surface vehicle?
    Dr. Allison. Thank you for the question. We--so what we 
have announced--we--at the--a big event we did in the spring is 
that our initial targets for rollout of this service, we kind 
of have announced a series of target-priced steps that we 
believe we can essentially match UberBLACK pricing in the 
initial rollout of the--in the target cities, Dallas-Fort Worth 
and Los Angeles, by increasing utilization and increasing the 
load factor by utilizing pooling out of our ground network. We 
think we can get to UberX-type pricing, which is around, say, 
$1.50 per passenger mile roughly speaking. And that's enabled 
by aggressively pooling to drive load factor into the vehicles 
and get the utilization up.
    And ultimately, we see at scale with improved manufacturing 
techniques that are more akin to the automotive industry, that 
we can be competitive with the costs and again on a passenger-
mile basis of car ownership, which is something like 44 cents a 
mile I think AAA says right now.
    Mr. McNerney. Okay. All right. Mr. Chairman, I'll suppress 
my next question and yield back.
    Chairman Smith. Thank you, Mr. McNerney.
    The gentleman from Texas, Mr. Babin, is recognized for his 
questions.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. I appreciate 
that and appreciate all of you witnesses. What a fascinating 
topic.
    Dr. Shin, is the United States maintaining its leadership 
role in the growing and evolving market for this aviation 
market? With regard to urban air mobility, will we be first to 
launch operations or might we lose out to some other country? 
And if so, what nation, and what are the consequences of not 
being first?
    Dr. Shin. Well, thank you for the question. I think it is 
fair to say--and I do believe that the United States still is 
leading the--this new potential market and capability from that 
perspective because, as I said in the oral testimony, we have 
the best minds and best technologies and best entrepreneur 
spirit.
    However, I even coined--I made up an English word called 
most developed country syndrome, so we are the most developed 
country in the world, and along with that, we have a lot of 
interests that some other countries may not care that much or 
they will be willing to relax some of those concerns. So the 
name of the game in this area in my view is since entry cost is 
very low compared to regular commercial airline business, 
most--probably most developed countries or developing countries 
can actually start this industry if they are willing to lower 
or relax the constraints and issues from a regulatory 
perspective, some safety perspective, and so on, so that is 
indeed a concern. And as you all know, some of the countries 
are jumping ahead and allowing even U.S. companies go to those 
countries.
    Mr. Babin. Who are those countries?
    Dr. Shin. They are Australia, New Zealand, and some of the 
European countries willing to do that, and Singapore or so--so 
some of the countries--again, I'm not suggesting they are 
lowering the safety standard, but they're willing to----
    Mr. Babin. Okay.
    Dr. Shin. --jump ahead. So that is a concern. But I do 
believe we have the--still the way to scale this up, as Dr. 
Allison and----
    Mr. Babin. Okay.
    Dr. Shin. --Ms. Dietrich talked about.
    Mr. Babin. Thank you. Once the UAM system is in place and 
multiple options exist for people to travel by air taxi, how 
long will it take before people will be able to own and operate 
their own VTOL vehicles? You may have already touched on this a 
little bit. I had to leave the room. And how much more 
complicated will it be to do the air-traffic control 
management, Ms. Dietrich?
    Ms. Dietrich. Yes, thank you for the question. I think that 
many of us in this space are not anticipating a private 
ownership model for the vertical takeoff and landing aircraft. 
I think we're seeing those as probably being cost-prohibitive 
for an individual owner, as well as if this system works the 
way envisioned, it won't be necessary. You'll be able to get 
the functionality without the headache and without the upfront 
expense.
    Mr. Babin. Right.
    Ms. Dietrich. So I do expect that these vehicles will be 
really dramatically increasing the number of aircraft that we 
see in the general aviation industry. My company alone is 
looking at deliveries on the order of a few thousand a year. 
That's currently basically the entire size of the GA industry 
each year. So this industry will rapidly become more of the 
norm than what we see in legacy aircraft today, and I think 
we're going to have to be conscious of that as we think about 
new constructs of both ownership and usage of these vehicles in 
that what folks typically think of as smaller planes in general 
aviation today will become a small piece of a much larger 
industry that brings the benefits of transportation by small 
aircraft to many more people but is not what we currently think 
of.
    Mr. Babin. Okay. Thank you. And Mr. McNerney had touched on 
this a little while ago, but just to be more specific, 
cybersecurity is a topic of serious concern whenever we discuss 
technologies, especially those that are new and nascent. How 
will the VTOL vehicles be protected from cybersecurity attacks, 
and who will be responsible for that protection? Will it be the 
vehicle manufacturer, the company that runs the operating 
system, the FAA, or someone else? And who would like to respond 
to that? Dr. Clarke?
    Dr. Clarke. Sure. I'm a faculty member, you know. We 
always----
    Mr. Babin. Right.
    Dr. Clarke. So precedence is that the operators ultimately 
are going to be the ones that are responsible. I'll give you a 
quick example. Every 28 days, we update the database of 
waypoints in the country that goes into flight management 
system, and even though the person putting it in might actually 
make a mistake, if something happens, it's the operator of the 
airline that's responsible because----
    Mr. Babin. Sure.
    Dr. Clarke. --they need to check. So they actually have 
staff members checking that database every 28 days, so that's 
what precedent would suggest. Ultimately, it's going to be a 
partnership. The one thing about aviation is that it truly has 
been and will continue to be a partnership between regulators, 
operators, and manufacturers. And there--like I said, there are 
people doing work, which I can't talk about, on the 
cybersecurity issue, but there are--they're going to be--it's 
going to be a partnership, and people are going to basically 
figure out how to do some tests of things coming in and out. 
Communication is one thing. There are companies thinking about 
using in-flight entertainment systems for doing communications 
of flight-critical information. There are people working on how 
to do that and keeping track of whether there's been nefarious 
tampering with the----
    Mr. Babin. Okay.
    Dr. Clarke. --data, et cetera.
    Mr. Babin. Okay. Thank you very much. And I yield back, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from Pennsylvania, Mr. Lamb, is recognized, 
and I have a quick question for him. Did you hear you were 
going to get a flying car if you attended the hearing today?
    Mr. Lamb. Well, I actually came here in a flying car, but 
it was a little late so that was why I showed up a little late, 
so I guess there's more research----
    Chairman Smith. I just want you to know there's only three 
left but you made it.
    Mr. Lamb. Oh, wow. Okay. Dr. Clarke--or anybody can take 
this but I wanted to address it first to Dr. Clarke. This 
actually seems like an industry that could create a fair number 
of jobs both in terms of the operators themselves, the 
engineers, designers, manufacturers. Does anyone have a sense 
of the potential impact in terms of numbers of jobs that we 
could be talking about, let's say, in the next decade?
    Dr. Clarke. I can't give you specific numbers so--but I can 
tell you that I've been a faculty member for 21 years. This is 
the most excited I've ever seen students around aviation. I 
mean, people are always excited about space, but this is the 
most excited I've seen people around aviation. And you know I 
think there's a great potential for jobs. I mean, I have 
undergrad students who are thinking about doing a startup. In 
fact, they've been building a wind tunnel in somebody's--they 
are looking for a flying vehicle which looks like a motorcycle, 
and they're trying to figure out where to move that wind 
tunnel. In fact, they sent me a message like, ``Do you know 
somebody where we can move this wind tunnel?'' They're funding 
themselves, so there's a great excitement. There's great 
potential.
    And, you know, to Uber's credit, they have basically said 
we're not going to build a vehicle but we're going to provide 
specifications and leave it out there for lots of others to do 
that.
    And the--you know, the challenge, the Boeing challenge 
around a flying motorcycle, that's generated a great deal of 
interest. And so I think the potential for jobs are tremendous. 
I can't give you a number because that's not--maybe the guys 
here who--will know how many people they're going to hire will 
tell you.
    Mr. Lamb. Anyone? Anyone have----
    Ms. Dietrich. I can offer a little bit of information. So 
since Terrafugia has really entered this space, we've been 
hiring on average five people a week, and we don't have plans 
to slow that down. So that's just one company.
    I would say that we're probably talking--when this industry 
is mature across all of the participants--between two and three 
orders of magnitude larger than the existing GA industry just 
to give you a sense.
    Mr. Lamb. And what about in terms of encouraging domestic 
manufacturing of all the equipment that we're going to need for 
this and the supply chain? Anyone have any thoughts on that? 
Mr. Thacker?
    Mr. Thacker. Yes, so, again, you think about the production 
volumes for existing aviation, general aviation in particular 
on--in numbers of tens, if you're at 100 a year, you're having 
a pretty stellar year. Maybe at the smaller end of light GA, 
you get into a few hundred a year. When you're talking about 
hundreds to thousands a year of somewhat larger vehicles that 
we're discussing here, it's a tremendous opportunity from a 
manufacturing standpoint for our country as well.
    Mr. Lamb. Anyone else?
    Dr. Allison. Just to amplify that a little bit, from our 
perspective we've been doing a lot of demand studies, so we've 
built these demand models. We look at trip flow. I actually 
presented some of this at the event in the spring for the L.A. 
region. But our studies suggest that at scale when this network 
is fully developed and it's soaking up, you know, possibly even 
double-digit percentages of overall trip flow in a region like 
L.A., that you could be talking about not just thousands but 
tens of thousands of vehicles active, enough demand to support 
that.
    Now, it would take a lot of time to get there, obviously, 
building out the network, but that's an incredible number 
compared to what the industry can produce right now. And so we 
have to see this industry grow significantly, as Ms. Dietrich 
said, multiple orders of magnitude, and it makes a lot of sense 
to produce these vehicles closer to where you're deploying them 
as well from a logistics standpoint because they're generally 
larger than cars and harder to ship and things like that, so I 
think there's going to be a lot of impetus to build out 
manufacturing capabilities here in the U.S. to be able to 
produce the volumes that this service or this type of 
transportation will demand.
    Mr. Lamb. Dr. Shin?
    Dr. Shin. Yes, if I can just add one more point, I think it 
is important for all of us to recognize that when we use urban 
air mobility, it truly includes from smallest UAS to air taxi 
and personal air vehicles and commuters and all those things 
that truly changing the landscape of aviation today. So as you 
are probing about the jobs and supply chains and all that, I 
think we need to really look at the holistic way of package 
delivery to passenger carrying small and large. And another 
question about the rural area, all these things should be 
considered as this air mobility. For the time being, we're 
using urban air mobility, but I think that opens up all these 
possibilities.
    Mr. Lamb. Thank you. Mr. Chairman, I yield the remainder of 
my time.
    Chairman Smith. Okay. Thank you, Mr. Lamb.
    The gentleman from Florida, Mr. Webster, is recognized for 
his questions.
    Mr. Webster. Thank you, Mr. Chairman, for doing this 
committee hearing and presentation. This is an awesome and very 
interesting subject.
    Dr. Clarke, I went to Georgia Tech, so we've sort of 
crossed paths. And Representative Massie, who was here earlier, 
went to MIT when you did. He was a double-E. But anyway, we're 
glad you're here. I got an opportunity to speak to the 
graduating class last year in the May graduation. That was a 
real thrill.
    Anyway, you mentioned in your presentation four different--
well, not obstacles, hurdles, let's say--to cross. Do you see 
any of those that are insurmountable?
    Dr. Clarke. No, I do not. I think they're all doable. I 
will say, you know, one of the things--the whole issue of 
autonomous operations versus decision-making is one of those 
that is particularly challenging because, you know, a lot of 
the things that people think about autonomy is really 
autonomous operations, you know, it's computer code, it's been 
validated, verified. It operates under certain conditions, and 
when things are unusual or in a situation it doesn't--it says, 
``I can't do anymore; I give up.''
    Mr. Webster. That'd be a little scary.
    Dr. Clarke. It is a little scary. And so there is work--I 
just--the National Science Foundation just announced a major 
program on autonomous decision-making just this past week where 
they're trying to actually get the fundamental research done 
and to basically decide how systems should decide to operate.
    So, you know, I think the ultimate idea or exemplar of what 
autonomous decision-making are kids. I have twins and they're 
11 and they're getting to that stage where they're getting to 
the autonomous decision-making. And you always think of 
yourself, which you've basically given them, you know, life 
lessons. You teach them how to think, not what to think but how 
to think, and that's really the great challenge in autonomy, 
teaching or building systems that actually learn and adapt and 
can adapt to situations they have not seen before. And so 
that's the challenge that I think is one of the biggest ones, 
but there is work being done both at NASA but, like I said, the 
National Science Foundation just launched a major effort in 
this area, and I don't think it's insurmountable. It shouldn't 
surprise you that I have some ideas about how to solve that 
problem. So I don't think it's insurmountable.
    Mr. Webster. So do you see them running on parallel tracks 
and like they could be separate solutions to each one, not 
necessarily waiting on the other one to be solved?
    Dr. Clarke. Right. No, and that will be the case and that 
has been the case where, for example, in autonomous cars we 
have a lot of algorithms in place that only operate under 
certain conditions, and when they get close to the edge, they 
basically say to some human supervisor, look, I can't get a 
solution.
    I personally believe that autonomy is more than just 
handing it over to the human when you can't figure it out. I 
think, you know, there's lots of opportunities for autonomous 
systems to help humans identify when they're getting close to 
the edge and basically staying away from the edge. And so 
there's--there are opportunities in the near term to introduce 
autonomy within limited settings but then gradually increase 
the level until the point where we get to full autonomous 
decision-making.
    Mr. Webster. Do you have any predictions on when that point 
will be?
    Dr. Clarke. When? My usual guess is around ten years, five 
to ten years, given the level of effort that is now--that I'm 
now seeing starting to pick up. Obviously, that will be--have 
to be a sustained effort to keep it going, but I think five to 
ten years we will get to the point where we'll have autonomous 
decision-making at the level that I would feel comfortable 
getting--I mean, getting on an airplane without having to worry 
about that.
    Mr. Webster. You'd be willing to get on it and ride it?
    Dr. Clarke. Oh, yes.
    Ms. Dietrich. If I may build on that just briefly, we're 
taking an approach with our designs that allow this spectrum to 
happen organically, so initially, we are going to have a 
commercial pilot on board the aircraft that's responsible for 
the flight operations. We are also going to have in parallel 
with that pilot all the sensors and autonomy routines running 
in the background. So we'll be able to be collecting data on 
what that system is doing and comparing it to what the pilot is 
doing, and they'll be able to help each other. And as we gain 
more and more confidence as this progression happens, we'll be 
able to allocate more and more responsibilities to the system 
itself. But we're not going to wait for the magic day when all 
of a sudden, ooh, it's done. We're working on that progression 
in an organic way for product rollout.
    Mr. Webster. Okay. I yield back. Thank you all so much.
    Chairman Smith. Thank you, Mr. Webster.
    The gentleman from South Carolina, Mr. Norman, is 
recognized for his questions.
    Mr. Norman. Thank you all for being here. This is 
fascinating. It really is.
    You know, in what you're doing, you're going to be facing--
I guess dealing with a lot of regulatory agencies both on a 
federal level, state level, and local level. How do you 
navigate that? And this is really for anybody. When do you 
start the process? Because it looks like it would be a 
challenge.
    Mr. Thacker. So I'm sure multiple people will have 
comments, but I think the key is you start early, you start 
now. We've already started. I think from a vehicle and 
operations standpoint, it's really important to get the whole 
FAA involved and to get a consistent outcome. We saw that with 
the drone as well when eventually the FAA basically put in 
place a structure that it was able to pull across all of the 
vehicle--the flight standards operation side and air traffic to 
help move that forward. We need to do that at the outset here 
to make sure that we have consistent regulation across those 
and we don't overburden any individual part of the system.
    And then we need to be involved in communities. That's why 
with Uber, you know, we've had outreach to Los Angeles, to 
Dallas-Fort Worth areas where we can start the conversation, 
understand the community needs, make sure that we're reacting 
to those.
    The last thing that we need is to have a patchwork of 
requirements across the country. We really need to have some 
consistency that allows us to execute in a scaled kind of way 
with the same vehicles, the same sort of operational models 
tailored locally with vertiport locations and things like that 
to manage noise, privacy, and other concerns but a consistent 
overall model from a regulatory standpoint, as well as from an 
operational standpoint.
    Dr. Shin. If I may build on Mr. Thacker's point, last point 
that this is a golden opportunity for the country that we can 
actually do this together in a very concerted and systematic 
manner. We don't have to repeat the same way that, as you 
mentioned, the patch jobs that we did 60, 70 years ago. So I 
think in the vehicle certification side, industry has been 
working really hard to get there, and I'm very optimistic that 
industry partners will get there. And from a government 
perspective, FAA and NASA have been working really well 
together to enable this new capability.
    So I think, again, my point is this is one chance that we 
can actually design the system right and everybody, public and 
private, working together to come up with the robust system as 
best as we can design and from the get-go. So I think we're all 
working together. We're just representing various small 
segments of the community, but I can assure you that a lot of 
entities are working together in this field.
    Dr. Clarke. I would add that, you know, you can never start 
speaking to regulators early enough when it comes to aviation 
in the sense because you're always pushing the envelope and 
you're all bringing technology to the--for which they don't 
necessarily have expertise in-house. And so that's one of the 
foremost reasons for starting early.
    I think in this case, you know, as I said earlier, I see a 
model for--a cable model for air-traffic control services just 
because it's just not practical in my view to have the FAA 
doing air-traffic management inside urban air sections. So I 
think there's going to be a new sense for certification, for 
certifying the companies and the entities that are doing the 
air-traffic management, which we haven't had to do before 
because that was all internal to the FAA. So I think there's 
going to be a need for regulations and processes for making 
sure that the folks who are actually managing the traffic are 
doing so in the way that you would like them to.
    So that's one area which I think is slightly different than 
we've had before in aviation where, you know, it was just about 
the vehicles and the operators but not about air-traffic 
control. Now, we'll have to be able to do certification around 
it, and we'll have to make it nimble. You know, one of the 
things about aviation is we have very rigorous standards and 
implicitly--and in some cases explicitly--we get some release 
on liability.
    Some of those standards are quite onerous and take a long 
time, and if you want not--if we don't want to throttle the 
growth of this industry, we'll have to figure out a model that 
is more nimble in regards to certification. And that's 
something that I think will require some legislation at some 
point.
    Mr. Norman. I think that's where Congress comes in because 
we represent different constituencies, and we'll have a lot of 
concerns, both positive and negative. What about other 
countries? Technology-wise, it looks like that would be an area 
that you could collaborate with. Are you doing any of that with 
other nations?
    Ms. Dietrich. I will say that from a regulatory perspective 
we've had a lot of cooperation from other international civil 
aviation authorities, particularly EASA, so the new Part 23, 
Amendment 64, is harmonized with CS-23, Amendment 5, so that is 
very beneficial for the industry at large.
    Mr. Norman. Yes, I wasn't talking about regulations. I was 
mainly thinking about technology-wise. I know as I get around 
my district a lot of the machinery comes from Germany, other 
countries. Is this something that you could possibly get with 
other nations on to look at?
    Dr. Shin. So NASA is a member of 26 member-states, an 
organization called International Forum for Aviation Research, 
so we--NASA was a founding member, along with the German 
aerospace agency some ten years ago when we formed this. The 
members are all government-backed or sponsored research 
organizations, so we're working to find out what the 
precompetitive but common technologies that we can raise the 
water level together and also harmonizing some of the 
technologies as standard possibly. So we're working with them 
and also we're working heavily with FAA, which represents the 
United States to the International Civil Aviation Organization, 
as Ms. Dietrich mentioned.
    So a lot of work needs to be done, and I think you're 
pointing out very important points. Still a lot needs to be 
done, but I think the necessary part is working together.
    Mr. Norman. Well, thank you so much. I yield back, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Norman.
    The gentleman from Florida, Mr. Dunn, is recognized for his 
questions.
    Mr. Dunn. Thank you very much, Mr. Chairman, for having 
this meeting. I mean, really, thank you. This is so fun. This 
is catnip to aviation enthusiasts.
    So like many of us, you know, I've spent hours poring over 
Popular Mechanics magazines, many of which were printed before 
anybody on the panel was born, pictures of flying cars and, you 
know, looking at that stuff, so it's exciting to actually have 
a chance to look at this in a--can I call this a professional 
manner?
    My wife and sons, they fly. I'm not a pilot, but they all 
are, and we've flown into Oshkosh for fun a number of times. 
Oshkosh started yesterday, by the way. If I was there right 
now, could I be shopping for flying cars? Panel, anybody know?
    Ms. Dietrich. Terrafugia has an exhibit there.
    Mr. Dunn. I could be shopping for a flying car today if I 
was in Oshkosh, Wisconsin. Let the record reflect that. That's 
just amazing, so cool. So I'm not going to ask any technical 
questions. I think you guys are smarter than me. You could 
solve all the FAA questions and, you know, the hybrid and 
everything and the balance weight. I think you're going to have 
to have autonomous because, let's face it, you know, flying 
planes is serious business.
    But what I want to know from this very learned panel is, of 
all these examples of flying cars here, which one or two do you 
want the most? And I just want you to go right down the panel, 
tell me which one you think is the coolest. Start with you, Dr. 
Shin.
    Dr. Shin. As a government person, I shouldn't----
    Mr. Dunn. See, everybody likes one. All right. What do 
you----
    Dr. Shin. But I--not generically, I like intermodal 
convenient way to do this, so whatever the designs may be and 
whatever the companies may be, it should be very--from my door 
at the home and----
    Mr. Dunn. Okay. So all the way, door-to-door. Okay. That's 
great. Sort of The Jetsons thing, right? Did you like the Aston 
Martin version? That's pretty cool, huh?
    Dr. Shin. I'm a little bit of a car nut, so that was really 
fancy that they put on.
    Mr. Dunn. Dr. Clarke?
    Dr. Clarke. So I have mixed minds here because, as Ms. 
Dietrich will tell you, I used to teach her husband when he was 
an undergrad. And, as Dr. Allison will tell you, my--one of my 
Ph.D. students is his lead analyst and optimizer and modeler, 
so I have interest in both solutions.
    I got to tell you, Mr. Chairman, I--and other members, I am 
a James Bond fan----
    Mr. Dunn. I knew it.
    Dr. Clarke. --and I'm also a Jetsons fan, so I actually 
like the idea of being able to leave your house and basically 
be able to go from door-to-door. I mean--
    Mr. Dunn. Door-to-door.
    Dr. Clarke. --door-to-door is the ultimate, right? That's 
what we care about.
    Mr. Dunn. That's it. So--well, Mr. Allison, do you care to 
respond?
    Dr. Allison. So we have five amazing vehicle partners with 
Uber Elevate, and I'm very excited to see all five of those 
vehicles fly sometime soon.
    Mr. Dunn. So you don't have one that you would maybe want 
to tuck in the garage first?
    Dr. Allison. I'm very excited to see all of them fly, but 
Mr. Thacker's vehicle from Bell will also be one of the great 
ones.
    Mr. Dunn. Outstanding.
    Mr. Thacker. I'm obviously biased towards the Bell 
solution, and I do believe that the air taxi will bring a 
sweeping change to how we move about cities, and I'm excited 
about that one because I think it will be here sooner than the 
door-to-door solution, and it's something that all of us will 
be able to take part in. So--and if you'd like to experience 
that, we have a virtual experience that I welcome any of you to 
come take when you get the chance.
    Mr. Dunn. Will you share the information with the staff so 
they can get it to us?
    Mr. Thacker. Absolutely.
    Mr. Dunn. Thank you. So that will be very important. So, 
please----
    Ms. Dietrich. Well, I have----
    Mr. Dunn. --solve my dilemma. Pick one for me.
    Ms. Dietrich. I was one of the founders of Terrafugia 
specifically because I wanted a Transition, so fortunately, 
next year, I should be able to get to really fly a Transition 
again and use that vehicle a little bit. It's not quite the 
urban mobility that we're talking about, but to be able to fly 
and drive the same vehicle, I'm very excited about that. 
Building and flying a vehicle that I helped create was one of 
my career goals.
    Mr. Dunn. I agree. Okay. I have a very large district, and 
I think you've just solved one of the problems I have here. 
Now, which one of these should I choose to commute across a 
district that's 350 miles long, eight hours of driving on the 
interstate, more if you take the back roads, lots of back 
roads, lots of farms?
    Ms. Dietrich. Well, I would recommend a TF-2 for you, and 
that----
    Mr. Dunn. TF-2. Write this down.
    Ms. Dietrich. The 200-mile minimum range with a ground 
vehicle integration so you'll be able to get the back roads and 
the vertical flight component.
    Mr. Dunn. What options should I order?
    Ms. Dietrich. We can talk about customization.
    Mr. Dunn. Mr. Chairman, let me say thank you again for 
having this meeting. It's been one of the high points of my 
time in Congress. I yield back.
    Chairman Smith. Thank you, Mr. Dunn. I think she'll offer 
you a discount, but that's another story.
    Now, Ms. Bonamici--before I recognize the gentlewoman from 
Oregon, did you come for the free flying car or did you come--
we only have two left, so we're getting to the end here.
    Ms. Bonamici. I----
    Chairman Smith. The gentlewoman----
    Ms. Bonamici. I wish I could say yes, Mr. Chairman.
    Chairman Smith. The gentlewoman is recognized.
    Ms. Bonamici. Thank you, Mr. Chairman. And my apologies for 
not being here for your testimony. I was in another committee, 
which is not nearly as much fun. No one was laughing there.
    But thank you so much for your testimony, which I have 
looked through. And I--you know, I frequently hear from my 
constituents out in northwest Oregon. They complain to us about 
everything but including traffic. And I hear from communities 
and businesses and individuals about the need to invest in 
infrastructure and how we put people back to work and how do we 
move people, how do we move goods. And my vision for 
infrastructure isn't just limited to roads and bridges. We need 
to invest in new transportation policy, new transportation 
infrastructure from high-speed rail to bicycle pedestrian 
pathways, and I'm interested in hearing from you about 
expanding this vision to include urban air mobility. I'm sure 
it's something that would be quite popular in the Pacific 
Northwest.
    One of the things I want to get to also is that I think the 
workforce in this field is going to need to be innovative and 
entrepreneurial, and I can tell that from your testimony, which 
I read. Those characteristics require creative and critical 
thinking. I also work on a lot of education issues, and I'm the 
Co-Chair and the founder of the bipartisan STEAM Caucus with 
Representative Stefanik from New York where we're working on 
ways that we can educate people who are creative and innovative 
through integration of arts and design in traditional STEM 
fields.
    I want to ask Dr. Clarke, what steps is the aviation 
research community making to make sure that students get the 
well-rounded education for the urban air mobility industry, and 
how--especially how those efforts might change as technology 
develops? How are you educating, you know, creative critical 
thinkers?
    Dr. Clarke. Thank you for the question, Congresswoman. One 
of the things that we're doing, first of all, is a lot of the 
universities, including my own, have been changing the 
curriculum and updating the curriculum over time to include 
more what would--I would say holistic topics. And the second 
thing is that we've also been trying to introduce a lot more 
the idea of innovation and--at the undergraduate level to try 
to--I was mentioning earlier before you stepped in that I've 
never seen the level of excitement that it is now amongst 
aerospace students in particular and the fact that people are 
out there starting companies or are coming up with ideas and 
trying to look for investors around new types of vehicles. So 
from the educational perspective moving beyond just, you know, 
engineering, science and the ``here's an equation, here's the 
solution to the equation and that's the end,'' it's thinking 
about the economic implications, thinking about the regulatory 
implications, bringing those in. And to credit ABET, which is 
the accreditation agency, has been pushing that for the last 
decade or more.
    And then--but there's definitely an emphasis--I know at 
Georgia Tech we are trying to make sure that every graduate of 
Georgia Tech has some thought and has given some thought and 
has done something around innovation and basically 
entrepreneurship, which I think goes towards, again, generating 
jobs and opportunities in the United States.
    Ms. Bonamici. So that's great to hear. We've had many 
conversations about how do we educate people today for the jobs 
that we can't imagine?
    Dr. Clarke. Right, right.
    Ms. Bonamici. In your testimony you talk about, all of you, 
your version for urban air mobility will eventually lead to 
autonomous vehicles hovering just hundreds of feet above us. I 
remember in Portland when they built an aerial tram to get from 
one part of the medical school to another and people who lived 
underneath it panicked, and of course with the UAV 
conversation. Can you elaborate on what steps you are taking to 
protect the privacy of consumers and individuals affected in 
the surrounding flight path, whoever wants to weigh in on that?
    Dr. Clarke. Well, I mean, for me I think the steps that 
need to be taken are pretty straightforward. We don't 
understand that trade-off between utility and privacy that is 
inherent in every one of us. I've spent time in the 
Netherlands, and they have great open windows and--in big--in 
cities in the Netherlands, and that's when I realized that 
privacy is a different thing than anonymity, so that's one 
thing that we have to really understand.
    And then the second is what's that trade-off that--what are 
people willing to give up for the utility? That's another 
thing. I mean, people give up lots of information on their cell 
phones and stuff because they find it useful, and so that's 
something that needs to be understood. Once we have that, we 
can actually start doing modeling and optimizing where we put 
vertiports, what kind of trajectories need to be put in place, 
so it's a three-step process, figuring out what people--what 
that trade-off is, figuring out the models to model it and then 
optimizing.
    Ms. Bonamici. In the remaining few seconds, anybody want to 
weigh in on changes we might need to make as we're considering 
infrastructure investments?
    Dr. Allison. So, thank you, Congresswoman, for the 
question. We think about this very much as multimodal 
solutions, and so Uber is interested in different modes of 
transportation and recently introducing bikes on our app. We 
see Elevate the same way, that this is a type of transit system 
that will integrate into other things, and it introduces one 
key feature that is not available right now in most of the 
transportation system, which is that the cost of building out 
this type of infrastructure doesn't scale by the--per foot of 
road you lay or track you lay or tunnel you dig perhaps. It 
scales with the nodes that you put in, and so it's a nodal-
scaling network. So the cost-scaling is very different than the 
way we think about transportation system and cost-scaling right 
now, and we think that will be a key feature down the road, so 
to speak, of how this type of a system integrates into the rest 
of the transportation system writ large.
    Ms. Bonamici. Thank you. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    This concludes our hearing today, and I just want to thank 
all of our expert witnesses for being here and for their 
testimony. Obviously, this is inspirational and soon to be--we 
hope--real-time and realistic.
    And we're going to do something we haven't done before, 
which is to make a presentation to you all. So if you will stay 
close to the table, here's the beginning of what we're going to 
present you. And let me say if you can't take it with you--and 
that would be totally understandable--we'll figure out a way to 
get it to you one way or the other, or maybe you can figure 
that out, too.
    So I'll come around and hand you the package with the 
flying car. By the way, the flying car has its wings out as you 
get it, but the wings actually collapse and fold vertically 
against the body of the car, and you simply push one button and 
the wings come out horizontal, and you're off the ground in 15 
feet. You can't beat it.
    I do not get a commission. Actually, I don't know who makes 
them exactly.
    Dr. Clarke. Mr. Chairman, I would--Mr. Chairman, you have 
now introduced a problem in my household because I have twin 
boys but----
    Chairman Smith. Oh, they'll love it.
    Let's see. The record will remain open for two weeks for 
additional written comments and written questions from members.
    And we stand adjourned.
    [Whereupon, at 11:54 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
